Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




FDA LACKS COMPREHENSIVE DATA
  TO DETERMINE WHETHER RISK
  EVALUATION AND MITIGATION
STRATEGIES IMPROVE DRUG SAFETY




                    Daniel R. Levinson
                     Inspector General

                      February 2013
                     OEI-04-11-00510
EXECUTIVE SUMMARY: FDA LACKS COMPREHENSIVE DATA TO
DETERMINE WHETHER REMS IMPROVE DRUG SAFETY, OEI-04-11-00510

WHY WE DID THIS STUDY

The Food and Drug Administration (FDA) requires manufacturers to submit structured
plans, known as Risk Evaluation and Mitigation Strategies (REMS), for drugs associated
with known or potential risks that may outweigh the drugs’ benefits. If FDA does not
properly monitor REMS’ performance, it cannot ensure that the public is provided
maximum protection from a drug’s known or potential risks. However, FDA does not
have the authority to require, but may request, drug manufacturers (i.e., sponsors) to
submit specific information regarding REMS’ effectiveness.

HOW WE DID THIS STUDY

We reviewed approved REMS since program inception in 2008 through 2011 and
conducted structured interviews with FDA officials about FDA’s efforts to evaluate
REMS components. We also reviewed 49 sponsors’ REMS assessments and FDA’s
reviews of these assessments to determine the extent to which sponsors’ assessments
were complete, were submitted to FDA within required timeframes, and indicated that
REMS were meeting their goals. We also determined whether FDA evaluated the
elements to assure safe use (ETASU) of one drug in each year of the program, as
required by Federal law.

WHAT WE FOUND

FDA approved 199 REMS between 2008 and 2011, 99 of which were still required in
2012. Nearly half of sponsor assessments for the 49 REMS we reviewed did not include
all information requested in FDA assessment plans, and 10 were not submitted to FDA
within required timeframes. FDA determined that 7 of the 49 REMS we reviewed met
all of their goals. However, FDA has not identified reliable methods to assess the
effectiveness of REMS. Finally, FDA’s assessment review times exceeded its goal of
60 days for all but one sponsor assessment, which reduces sponsors’ time to make
suggested changes before submitting subsequent assessments.

WHAT WE RECOMMEND

Our findings raise concerns about the overall effectiveness of the REMS program. To
address these concerns, we made seven recommendations regarding FDA’s evaluation
and assessment of REMS and its review of sponsors’ REMS assessments. FDA
concurred with six of our recommendations. For the remaining recommendation, to seek
legislative authority to make FDA assessment plans enforceable, FDA did not state
whether it concurred or did not concur. However, FDA agreed that this recommendation
should be considered if another opportunity arises to pursue legislative changes to the
statutory provisions that describe the requirements for REMS assessments.
TABLE OF CONTENTS

Objectives .................................................................................................... 1
Background .................................................................................................. 1
Methodology .............................................................................................. 10
Findings ..................................................................................................... 14
           FDA approved 199 REMS between 2008 and 2011, 99 of which
           were still required in 2012 ............................................................. 14
           Nearly half of the 49 sponsor assessments we reviewed did not
           include all information requested in FDA assessment plans, and
           10 were not submitted to FDA within required timeframes .......... 15
           FDA determined that 7 of the 49 REMS we reviewed met all of
           their goals....................................................................................... 16
           FDA has not identified reliable methods to evaluate the
           effectiveness of REMS .................................................................. 18
           FDA’s assessment review times exceeded its 60-day goal for
           all but one sponsor assessment ...................................................... 20
Conclusion and Recommendations............................................................ 22
           Agency Comments and Office of Inspector General Response .... 25
Appendixes ................................................................................................ 27
           A: Assessment Review Memorandums Provided by FDA ........... 27
           B: Agency Comments ................................................................... 29
Acknowledgments ..................................................................................... 34
                 OBJECTIVES
                 1. To describe the Risk Evaluation and Mitigation Strategies (REMS) the
                    Food and Drug Administration (FDA) approved for drugs between
                    program inception in 2008 and 2011.
                 2. To determine the extent to which sponsors’ REMS assessments
                    indicate that REMS are complete, are meeting their goals, and are
                    submitted to FDA within required timeframes.
                 3. To determine the extent to which FDA has evaluated the effectiveness
                    of REMS.
                 4. To determine the extent to which FDA reviews sponsors’ REMS
                    assessments within its goal of 60 days.

                 BACKGROUND
                 The Federal Food, Drug, and Cosmetic Act (FDCA), as amended by the
                 Food and Drug Administration Amendments Act of 2007 and the Food and
                 Drug Administration Safety and Innovation Act of 2012, authorizes FDA
                 to require REMS for certain drugs and biological products (hereinafter
                 referred to as drugs) to assure that their benefits outweigh their risks. 1, 2
                 REMS are structured plans to manage specific risks of drugs that are
                 effective but associated with known or potential risks (e.g., death, injury)
                 that, without REMS, may outweigh benefits. When FDA requires a
                 REMS, the drug manufacturer (i.e., sponsor) must develop, implement,
                 and assess it. 3 FDA reviews and approves each REMS.




                 1
                   Biological products include vaccines, blood and blood products, gene therapies, and
                 allergenic extracts. Therapeutic biological products generally fall under the definition of
                 “drugs,” which include substances intended for the diagnosis, cure, mitigation, treatment, or
                 prevention of disease and which meet certain other requirements. FDA, Drugs@FDA
                 Glossary of Terms. Accessed at
                 http://www.fda.gov/Drugs/informationondrugs/ucm079436.htm#B on June 15, 2012.
                 2
                   The Food and Drug Administration Amendments Act (P.L. 110-85, Sept. 27, 2007) added
                 § 505-1 to the FDCA. The Food and Drug Administration Safety and Innovation Act
                 (FDASIA) (P.L. 112-144, July 9, 2012) further amended FDCA § 505-1.
                 3
                   Under FDCA § 505-1, the responsible person submitting a covered application to market a
                 drug or the holder of such approved application is required to submit, implement, and assess
                 REMS. In this report, we refer to the “responsible person” as the sponsor. Generally, a drug
                 manufacturer submits and holds a drug’s application and is the drug’s sponsor. FDA, Drug
                 Development and Review Definitions. Accessed at
                 http://www.fda.gov/Drugs/DevelopmentApprovalProcess/HowDrugsareDevelopedandAp
                 proved/ApprovalApplications/InvestigationalNewDrugINDApplication/ucm176522.htm
                 on April 24, 2012.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                 1
                 FDA has the authority to, among other things, deem a drug misbranded or
                 impose civil monetary penalties on sponsors that violate approved
                 REMS. 4, 5
                 Structure of REMS
                 Each REMS includes one or more overall goals to achieve a particular
                 safety-related health outcome or understanding by patients and/or health
                 care providers of a drug’s risks. 6 Examples of REMS goals include
                 preventing fetal exposure to a drug and informing prescribers, patients,
                 and pharmacists of the serious risks and safe-use conditions for a drug.
                 REMS include one or more strategies to provide additional safety in the
                 usage of certain drugs. For example, REMS may require sponsors to
                 create additional safety information for patients or to ensure that health
                 care providers that prescribe the drug are specially certified. 7
                 For brand-name drugs, each REMS must include a timetable for sponsors
                 to submit REMS assessments. 8, 9 The standard timetable requires sponsors
                 to submit assessments of REMS’ effectiveness by 18 months, 3 years, and
                 7 years after approval of the REMS. 10 FDA may require sponsors to
                 submit assessments at different intervals specified in the REMS or
                 eliminate the timetable after 3 years if it determines that a drug’s risks




                 4
                   A drug may be deemed to be misbranded if it is subject to a REMS and the sponsor fails to
                 comply with a requirement of the REMS. FDCA § 502(y). Misbranded drugs may not be
                 introduced into, delivered, or received into interstate commerce. FDCA § 301 (a) and (c).
                 5
                   Sponsors that violate REMS requirements may be subject to civil monetary penalties of up
                 to $250,000 per violation. Civil monetary penalties are not to exceed $1 million in a single
                 proceeding. Civil monetary penalties may increase to $10 million for continued violations.
                 FDCA § 303(f)(4)(A). Additionally, a sponsor may not introduce or deliver for introduction
                 into interstate commerce an approved drug if a REMS is required for the drug and the sponsor
                 fails to maintain compliance with the requirements of the approved REMS or with other
                 requirements of § 505-1 of FDCA. FDCA § 505(p).
                 6
                   FDA, Draft Guidance for Industry: Format and Content of Proposed REMS, REMS
                 Assessments, and Proposed REMS Modifications, p. 9. Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/UCM184128.pdf on June 23, 2011. This draft guidance will represent FDA’s current
                 thinking on this topic when finalized, but will not bind FDA or the public.
                 7
                   FDCA §§ 505-1(c)(2), 505-1(e)(2), and 505-1(f)(3)(A).
                 8
                   FDCA §§ 505-1(c)(1) and (d). The timetable for assessments specifies when sponsors will
                 submit the assessment to FDA, not when the assessment will be performed.
                 9
                   REMS for drugs subject to abbreviated new drug applications (i.e., generics) do not require a
                 timetable for assessments. FDCA § 505-1(i)(1)(A–B).
                 10
                    FDA often requires more frequent assessments (e.g., at 6-month intervals or annually) for
                 drugs associated with the most serious risks.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                  2
                 have been adequately identified and assessed and are being adequately
                 managed. 11
                 FDA may require one or more of the following components in addition to
                 the timetable for assessments: medication guide or patient package insert,
                 a communication plan, or elements to assure safe use (ETASU). 12 FDA
                 determines which of these additional components to require according to a
                 drug’s risks.
                 Medication Guides and Patient Package Inserts. Medication guides are
                 paper handouts that include FDA-approved information about the safe and
                 effective use of a drug. Medication guides are not unique to REMS; FDA
                 oversees their content and format under separate regulations and may
                 require them without requiring a REMS. 13 Some REMS may require
                 patient package inserts, which also contain drug safety information, in
                 addition to medication guides. 14, 15
                 Communication Plans. Communication plans describe how sponsors will
                 inform health care providers about a drug’s risks and/or the components of
                 a REMS. These plans may describe how a sponsor will send letters to
                 health care providers and disseminate information through professional
                 societies about a drug’s risks. 16




                 11
                    FDCA §§ 505-1(d)(4)(A) and (C). When FDA eliminates a REMS’ timetable for
                 assessments, it may continue to require the REMS but the sponsor is no longer required to
                 submit assessments.
                 12
                    FDCA §§ 505-1(e)(1–3) and 505-1(f)(1–3).
                 13
                    If FDA requires a medication guide not as a component of a REMS, sponsors are not
                 required to assess them. See 21 CFR 208.
                 14
                    Patient package inserts are required for some prescription drugs, including estrogens and
                 oral contraceptive products and are considered to be part of a drug’s labeling. Manufacturers
                 of other drugs may voluntarily provide patient package inserts. Required patient package
                 inserts must be dispensed to patients with the drug. 21 CFR 310.501, 21 CFR 310.515. See
                 also, FDA, Guidance: Drug Safety Information – FDA’s Communication to the Public, p. 10.
                 Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/ucm072281.pdf on December 19, 2012.
                 15
                    FDA does not expect to require both patient package inserts and medication guides
                 frequently. FDA may allow sponsors to include an existing patient package insert in a REMS
                 instead of a medication guide or require sponsors to convert a patient package insert into a
                 medication guide, if it meets medication guide requirements. FDA, Guidance for Industry:
                 Format and Content of Proposed REMS, REMS Assessments, and Proposed REMS
                 Modifications, p. 10. Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/UCM184128.pdf on June 23, 2011.
                 16
                    FDCA § 505-1(e)(3).

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                3
                 ETASUs. FDA may require ETASUs for drugs that are associated with a
                 serious adverse drug experience if, without the ETASUs, FDA would not
                 approve the drug or would withdraw the drug’s approval. 17, 18 If drugs
                 were initially approved without ETASUs, FDA must determine that other
                 REMS components are not sufficient to mitigate risks before it requires
                 ETASUs. 19
                 FDA can require one or more of the following ETASUs:
                      •   health care providers who prescribe the drug have certain training,
                          experience, or certification;
                      •   pharmacies, practitioners, and/or other health care settings that
                          dispense the drug are specially certified;
                      •   the drug is dispensed only in certain health care settings (e.g.,
                          hospitals, appropriately equipped physicians’ offices);
                      •   the drug is dispensed only to patients with evidence or
                          documentation (e.g., laboratory test results, signed
                          acknowledgement of risks) that they can safely use the drug;
                      •   each patient using the drug is subject to monitoring (e.g., patients
                          must periodically contact the prescriber or undergo laboratory
                          tests); and
                      •   each patient using the drug is enrolled in a registry. 20
                 Each ETASU must (1) correspond to the specific serious risk listed in the
                 labeling of a drug; (2) considering such risk, not be unduly burdensome on
                 patient access to a drug, particularly considering patients with serious or
                 life-threatening conditions and patients who have difficulty accessing
                 health care; and (3) to the extent practicable, minimize the burden on the
                 health care delivery system. 21



                 17
                    A serious adverse drug experience is an adverse event associated with the use of a drug that
                 results in death, the immediate risk of death, inpatient hospitalization or prolonging existing
                 hospitalization, a persistent or significant incapacity or substantial disruption of the ability to
                 conduct normal life functions, a congenital anomaly or birth defect, or a medical or surgical
                 intervention to prevent these outcomes. FDCA § 505-1(b)(4).
                 18
                    FDCA § 505-1(f)(1)(A).
                 19
                    FDCA § 505-1(f)(1)(B).
                 20
                    FDCA § 505-1(f)(3)(A–F).
                 21
                    FDCA §§ 505-1(f)(2)(A), (C), and (D). Specifically, to minimize the burden on the health
                 care system, ETASUs should conform with the ETASUs of drugs with similar serious risks
                 and be designed to be compatible with established distribution, procurement, and dispensing
                 systems for drugs. FDCA § 505-1(f)(2)(D). Additionally, each ETASU must be posted
                 publicly by the Secretary within 30 days with an explanation of how it will mitigate the safety
                 risk. FDCA § 505-1(f)(2)(B).

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                      4
                 When FDA requires certain ETASUs, the REMS may also include an
                 implementation system. 22 Sponsors may use implementation systems to
                 take reasonable steps to monitor, evaluate, and improve the
                 implementation of ETASUs. 23 Examples of implementation systems
                 include requiring sponsors to conduct periodic audits of health care
                 settings that use the drug or to maintain a database of all certified entities
                 to ensure that certification requirements are met. 24
                 REMS components are not exclusive. For example, REMS that require
                 ETASUs generally also require a communication plan and/or a medication
                 guide. FDA refers to three types of REMS according to the most intensive
                 (i.e., primary) required component: medication guide, communication
                 plan, and ETASU REMS. See Table 1 for examples of drugs that require
                 the various REMS components.




                 22
                    ETASUs that may include an implementation system are: requiring special certification for
                 pharmacies, practitioners, or other health care providers that dispense the drug; dispensing the
                 drug in certain settings; and dispensing the drug only to patients with certain evidence or
                 documentation. FDCA § 505-1(f)(4).
                 23
                    FDCA § 505-1(f)(4).
                 24
                    FDA, Guidance for Industry: Format and Content of Proposed REMS, REMS Assessments,
                 and Proposed REMS Modifications, pp. 14–15. Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/UCM184128.pdf on June 23, 2011.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                   5
Table 1: Examples of Drugs Requiring REMS

                                 Approved                                                                          Primary REMS
Drug                                                              Risks       Required REMS Components*
                                 Indication                                                                           Component

                                                        Neuropsychiatric
                                                    symptoms, including
                                                   changes in behavior,            Timetable for assessments,         Medication
Chantix                   Smoking cessation
                                                    agitation, depressed                     medication guide             guide
                                                     mood, and suicidal
                                                   thoughts and actions

                          Treatment of adult
                                patients with
                                                  Unintended exposure
                      complicated skin and                                       Timetable for assessments,
                                                   of pregnant women                                               Communication
Vibativ                        skin structure                               medication guide, communication
                                                            resulting in                                                   plan
                       infections caused by                                                           plan
                                                         teratogenicity
                          susceptible Gram-
                            positive bacteria

                           Management of
                       moderate to severe
                               pain when a
OxyContin                                           Potential for abuse,
                       continuous, around-                                         Timetable for assessments,
controlled-                                      misuse, overdose, and                                                   ETASU
                          the-clock, opioid                                        medication guide, ETASUs
release tablets                                                addiction
                       analgesic is needed
                           for an extended
                                     period
                                                                                 Timetable for assessments;
                      Management of type                                    medication guide; communication
Avandia                                            Myocardial infarction                                                 ETASU
                             II diabetes                                         plan; ETASUs, including an
                                                                                      implementation system
Source: Office of Inspector General (OIG) analysis of approved REMS, 2011.
* The required components of these REMS may change over time. This table includes REMS components required as of
December 31, 2011.

                     Criteria for Requiring REMS
                     FDA may require a REMS before approving an application to market a
                     drug (i.e., preapproval REMS) or after a drug is on the market (i.e.,
                     postapproval REMS). 25 FDA must consider the following factors to
                     determine whether a preapproval REMS is necessary:
                             •   the estimated size of the population likely to use the drug,
                             •   the seriousness of the disease or condition that the drug treats,
                             •   the expected benefit of the drug,
                             •   the duration of treatment,




                     25
                          FDCA § 505-1(a).

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                               6
                       •    the seriousness of any known or potential adverse events related
                            to the drug and the background incidence (i.e., frequency) of
                            these events in the population likely to use the drug, and
                       •    whether the drug is a new molecular entity. 26, 27
                 FDA may require a postapproval REMS if it becomes aware of new safety
                 information after a drug is on the market and determines that a REMS is
                 necessary to ensure that the benefits of the drug outweigh the risks. 28, 29
                 For example, FDA required a postapproval REMS for the drug Wellbutrin
                 in response to reports of suicide-related events in patients using the drug
                 for smoking cessation. 30
                 REMS Approval Process
                 When FDA requires a REMS, it notifies the drug’s sponsor in a REMS
                 notification letter. The REMS notification letter instructs the sponsor to
                 submit a proposed REMS containing the components FDA determines are
                 necessary. FDA reviews the proposed REMS and approves it after an
                 interactive process with the sponsor. 31 After FDA approves a proposed
                 REMS, it notifies the drug’s sponsor in a REMS approval letter.
                 FDA works with sponsors to develop an FDA assessment plan for each
                 REMS, which is included in the REMS approval letter. Assessment plans
                 describe the information that FDA requests sponsors to collect to complete
                 a valid assessment of whether a REMS is meeting its goals. 32 For
                 example, FDA may request that a sponsor’s assessment include the


                 26
                    A new molecular entity is an active ingredient that has never been marketed in the United
                 States in any form. FDA, Drugs@FDA Glossary of Terms. Accessed at
                 http://www.fda.gov/Drugs/informationondrugs/ucm079436.htm#N on September 2, 2011.
                 27
                    FDCA § 505-1(a)(1)(A–F).
                 28
                    FDCA § 505-1(a)(2)(A). New safety information is derived from scientific data (e.g.,
                 clinical trials, adverse event reports) about serious or unexpected risks associated with a drug
                 that FDA has become aware of since the drug was approved, since the REMS was required, or
                 since the last assessment of the approved REMS. These scientific data may be based on a new
                 analysis of existing information. FDCA § 505-1(b)(3).
                 29
                    FDA also considers the factors listed in FDCA § 505-1(a)(1)(A–F) when requiring a
                 postapproval REMS.
                 30
                    FDA, NDA 018644/S-041, NDA 023858/S-048 Approval Letter, February 26, 2010.
                 Accessed at
                 http://www.accessdata.fda.gov/drugsatfda_docs/appletter/2010/018644s041,020358s048l
                 tr.pdf on November 1, 2011.
                 31
                    FDA, CDER 21st Century Review Process Desk Reference Guide, p. 53. Accessed at
                 http://www.fda.gov/downloads/AboutFDA/CentersOffices/CDER/ManualofPoliciesProc
                 edures/UCM218757.pdf on May 3, 2012.
                 32
                    FDA, Guidance for Industry: Format and Content of Proposed REMS, REMS Assessments,
                 and Proposed REMS Modifications, p. 18. Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/UCM184128.pdf on June 23, 2011.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                   7
                 number of patients enrolled in a user registry or an evaluation of patients’
                 understanding of a drug’s risks.
                 Sponsors’ Assessments of REMS
                 Sponsors of brand-name drugs must submit their assessments of REMS
                 for FDA’s review according to the timetable in the approved REMS. 33
                 FDCA requires FDA to review sponsors’ assessments but does not require
                 FDA to perform its own assessments of each REMS. 34 FDA may require
                 sponsors to submit an additional assessment if one is needed to evaluate
                 whether the REMS should be modified. 35 Sponsors may also submit
                 voluntary assessments of REMS at any time. 36 Sponsors’ assessments
                 must include information required by FDCA and should also include
                 information requested in FDA assessment plans.
                 Requirements for Sponsors’ Assessments. At the time of our review,
                 assessments of REMS with ETASUs were required to include an
                 evaluation of the extent to which each ETASU is meeting the goal stated
                 in the REMS in addition to complying with the approved timetable.
                 Under current amendments to FDCA, all REMS assessments must
                 include, with respect to each goal of the REMS, an assessment of the
                 extent to which REMS are meeting the goals or of whether the goals or
                 REMS should be modified. 37 FDCA does not require sponsors to include
                 additional information about the effectiveness of REMS in assessments.
                 FDA may take enforcement actions (e.g., deem a drug misbranded, impose
                 civil monetary penalties) if sponsors fail to meet the assessment
                 requirements outlined in FDCA. 38 However, FDA does not have authority
                 to take enforcement actions if sponsors’ assessments do not include
                 information requested in FDA assessment plans.
                 FDA’s Reviews of Sponsors’ Assessments. Multidisciplinary teams made
                 up of staff in FDA’s Division of Risk Management within the Office of
                 Surveillance and Epidemiology, the respective drug review division(s) in
                 the Office of New Drugs, and the Office of Compliance review sponsors’
                 REMS assessments. Staff in the Division of Risk Management complete
                 review memorandums that summarize the teams’ findings. The teams

                 33
                    FDCA § 505-1(d). Sponsors of generic drugs are not required to submit REMS
                 assessments according to a timetable.
                 34
                    FDCA § 505-1(h)(1). FDA’s requirement to assess the ETASUs of at least one drug each
                 year is distinct from its responsibility to review sponsors’ assessments.
                 35
                    FDCA § 505-1(g)(2)(C).
                 36
                    FDCA § 505-1(g)(1).
                 37
                    FDCA § 505-1(g)(3). Because this was not required at the time of our review, we
                 determined only whether assessments of REMS with ETASUs included assessments of the
                 extent to which each ETASU was meeting the stated goal in the REMS.
                 38
                    FDCA §§ 502(y) and 303(f)(4)(A).

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)               8
                 review assessments for completeness and determine whether REMS are
                 meeting their goals or whether modifications to the REMS or FDA
                 assessment plans are required. A Division of Risk Management review
                 memorandum documents whether a sponsor’s assessment (1) is complete,
                 (2) indicates the REMS is meeting its goals or needs modifications, and
                 (3) identifies any deficiencies that may affect a REMS’s ability to mitigate
                 risks. 39
                 The Office of Compliance also completes review memorandums, which
                 document whether sponsors submit complete assessments according to the
                 approved timetable. However, the Office of Compliance defers the
                 analysis of assessment data and of whether REMS are meeting their goals
                 to the Division of Risk Management. 40
                 FDCA requires FDA to promptly review sponsors’ assessments. 41
                 Although FDA does not define “promptly,” FDA officials indicated that
                 their goal is to complete all assessment reviews within 60 days of
                 submission if it does not discuss REMS modifications with sponsors. 42
                 Figure 1 illustrates the relationship of the REMS, FDA assessment plan,
                 sponsor’s assessment, and FDA review memorandum.
                 Figure 1: Relationship of REMS Documents

 REMS                            FDA Assessment                  Sponsor's                     FDA Review
                                 Plan                            Assessment                    Memorandum

      •Enforceable                     •Unenforceable                •Document                    •Document
      FDA document                      FDA document                  containing                   containing
      outlining REMS                    outlining how                 sponsor's                    FDA's review of
      components                        sponsors                      assessments of               sponsor's
                                        should assess                 REMS                         assessment
                                        REMS'                         effectiveness
                                        effectiveness



                 Source: OIG analysis of REMS documents, 2012.


                 FDA’s Evaluation of REMS
                 Federal law (i.e., FDCA) requires FDA to evaluate the ETASUs of at least
                 one REMS each year to determine whether the ETASUs (1) assure safe

                 39
                    Federal regulations and FDA policy do not define a complete assessment. “Complete” is
                 defined later for the purposes of this study.
                 40
                    Based on OIG review of Office of Compliance review memorandums.
                 41
                    FDCA § 505-1(h)(1).
                 42
                    Since FDA set this goal, some FDCA provisions regarding the review of sponsors’
                 assessments have changed because of FDASIA. Before FDASIA was enacted, FDA opened a
                 90-day discussion period to work with sponsors to determine whether REMS modifications
                 were necessary and to discuss possible modifications. FDASIA removed the provision
                 regarding the 90-day discussion period, but FDA may still discuss REMS modifications with
                 sponsors and is still required to promptly review sponsors’ assessments.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)             9
                 use of the drug; (2) are unduly burdensome on patient access to the drug;
                 and (3) to the extent practicable, minimize the burden on the health care
                 delivery system. 43
                 In 2008, FDA issued a 5-year plan (2008–2012) to enhance and modernize
                 its drug safety activities. In the 5-year plan, FDA states that it will
                 develop a plan to identify, develop, validate, and assess the effectiveness
                 of REMS components. 44

                 METHODOLOGY
                 Scope
                 We reviewed and described the REMS that FDA approved between
                 program inception in 2008 and 2011. Additionally, we reviewed sponsors’
                 most recent assessments to determine whether they were complete. We
                 reviewed FDA’s review memorandums for each of the sponsor
                 assessments to determine whether FDA notified sponsors about
                 incomplete assessments, concluded that REMS were meeting their goals,
                 and completed its reviews within 60 days. We also determined the extent
                 to which FDA has evaluated REMS with ETASUs, as required by Federal
                 law.
                 Our review included 199 REMS. We reviewed sponsors’ assessments and
                 FDA review memorandums for the 49 REMS that required assessments
                 according to their approved timetables as of December 31, 2011. 45 We
                 also reviewed the second most recent assessment (i.e., prior assessment)
                 and FDA review memorandums for the 14 REMS that required multiple
                 assessments during our timeframe. 46 See Appendix A for a list of REMS
                 and associated review memorandums provided by FDA.
                 We limited our review of sponsors’ assessments to those required by the
                 timetable in each REMS. We did not include REMS for generic drugs in
                 our review because sponsors of these drugs are not required to submit


                 43
                    FDCA § 505-1(f)(5)(B). FDA has been required to complete this evaluation for one drug
                 with an ETASU REMS each year since 2008.
                 44
                    FDA, PDUFA Drug Safety 5-year Plan 2008–2012, December 2008, p. 8. Accessed at
                 http://www.fda.gov/downloads/ForIndustry/UserFees/PrescriptionDrugUserFee/UCM119
                 244.pdf on September 23, 2011. The 5-year plan is distinct from FDA’s required evaluation
                 and is not specific to ETASUs.
                 45
                    Fifty-seven REMS required at least one assessment by December 31, 2011. We did not
                 include eight REMS in this analysis because FDA did not provide review memorandums for
                 them. This does not necessarily indicate that FDA failed to review these assessments. These
                 assessments may have been under FDA review during our data collection period.
                 46
                    Twenty REMS required multiple assessments by December 31, 2011. We did not include
                 six REMS in this analysis because FDA did not provide prior review memorandums for four
                 REMS and did not provide the most recent review memorandums for two.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                10
                 REMS assessments according to a timetable. 47 We did not review
                 sponsors’ assessments for which FDA did not provide review
                 memorandums. Additionally, we did not independently determine the
                 extent to which REMS are meeting their goals and relied on FDA
                 statements in review memorandums.
                 Data Collection and Analysis
                 We reviewed relevant statutes, policies, and guidance documents related to
                 REMS. We conducted structured interviews with and requested
                 documentation from FDA officials. Finally, we analyzed REMS, FDA
                 assessment plans, sponsors’ assessments, and FDA review memorandums.
                 Describing REMS Approved Between 2008 and 2011. We used FDA’s
                 online list of REMS to calculate the number of REMS that FDA approved
                 between March 25, 2008, when FDA’s authority to require REMS began,
                 and December 31, 2011, when we collected our data. We described the
                 components of these REMS and determined how many REMS were no
                 longer required as of December 31, 2011.
                 Determining Completeness and Timeliness of Sponsors’ Assessments. We
                 analyzed the 49 most recent sponsor assessments to determine whether
                 sponsors included information requested in FDA assessment plans and
                 required by Federal law. We based our determination on an independent
                 review of sponsor assessments and FDA assessment plans. We did not
                 rely on statements in FDA review memorandums to determine whether
                 assessments were complete. However, if FDA review memorandums
                 indicated that FDA no longer requested sponsors to submit certain pieces
                 of information, we did not consider the information to be missing. To
                 determine whether sponsors submitted their assessments according to the
                 approved timetable, we compared assessment submission dates to the
                 timetable in each approved REMS. We also requested documentation of
                 any enforcement actions FDA has taken in response to sponsor
                 assessments that did not comply with Federal requirements.
                 Determining Whether REMS Were Meeting Goals. We analyzed FDA
                 review memorandums associated with the 49 most recent sponsor
                 assessments to determine whether FDA concluded that REMS were




                 47
                    Our review includes the drug isotretinoin, which was approved as an acne treatment and
                 marketed as Accutane. FDA required a single, shared-system REMS for Accutane and its
                 generic equivalents but Accutane’s approval was withdrawn at the request of its sponsor.
                 Several of its generic equivalents remain on the market and are under the originally approved
                 single, shared-system REMS. Sponsors of these generic drugs have submitted assessments in
                 accordance with the timetable included the Accutane REMS.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                11
                 meeting their goals. 48 We considered determinations of whether REMS
                 were meeting their goals to be in four categories: (1) the REMS was
                 meeting its goals, (2) the REMS was not meeting its goals, (3) FDA
                 reviewers could not determine whether the REMS was meeting its goals,
                 and (4) FDA reviewers did not determine whether the REMS was meeting
                 its goals.
                 We did not independently determine whether REMS were meeting their
                 goals; instead, we relied on statements from FDA reviewers in review
                 memorandums. For example, a review memorandum for a REMS that
                 FDA determined was not meeting its goals states that “… we find that the
                 goals are not being met.” A review memorandum for a REMS for which
                 FDA could not determine was meeting its goals states that “… due to a
                 lack of valid data, we cannot comment on whether the REMS is meeting
                 its educational goals.” We considered REMS to be in the fourth category
                 if review memorandums did not contain a statement from the reviewer
                 regarding whether the REMS was meeting all of its goals.
                 For the 14 REMS that required at least one prior assessment, we analyzed
                 the prior review memorandums to determine whether reviewers stated that
                 the assessments identified deficiencies that may affect the REMS’ ability
                 to mitigate risks. 49 If reviewers noted deficiencies in prior assessments,
                 we determined whether the reviewers noted the same deficiencies in the
                 most recent sponsor assessments. We also compared FDA’s
                 determinations about whether REMS were meeting their goals in review
                 memorandums for the prior assessments to determinations in the most
                 recent review memorandums.
                 Determining the Extent of FDA’s Evaluation of REMS. We conducted
                 structured interviews with FDA officials regarding (1) the evaluation of
                 ETASUs, as required by FDCA; and (2) FDA’s plan to identify, develop,
                 validate, and assess the effectiveness of REMS components, as described
                 in its 5-year plan (2008–2012) to enhance and modernize drug safety
                 activities.
                 Determining FDA’s Assessment Review Times. We determined FDA’s
                 review times for sponsor assessments for which FDA did not discuss
                 REMS modifications with sponsors. For these 29 sponsor assessments,
                 we used the submission dates on the assessments and the dates on the


                 48
                    Reviewers’ determinations regarding whether REMS are meeting each goal are found
                 in the discussion section of review memorandums. Only Division of Risk Management
                 review memorandums include this determination; however, the memorandums reflect the
                 reviews of a multidisciplinary team.
                 49
                    Reviewers note deficiencies in the discussion and recommendations sections of review
                 memorandums.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)          12
                 associated FDA review memorandums to determine whether FDA
                 completed reviews within its goal of 60 days. 50
                 Limitations
                 We did not review FDA communication with sponsors regarding their
                 assessment reviews. We based reports of actions that FDA took after
                 assessment reviews (e.g., discussing REMS modifications with sponsors)
                 on the recommendations stated in FDA’s Division of Risk Management
                 review memorandums, not on FDA communication with sponsors.
                 Standards
                 This study was conducted in accordance with the Quality Standards for
                 Inspection and Evaluation issued by the Council of the Inspectors General
                 on Integrity and Efficiency.




                 50
                   For Division of Risk Management review memorandums, we used the dates of review as
                 the review completion dates. For Office of Compliance review memorandums, with one
                 exception, we used the electronic signature dates for the review completion dates.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)            13
                 FINDINGS
                 FDA approved 199 REMS between 2008 and 2011,
                 99 of which were still required in 2012
                 FDA requires REMS to manage specific risks of drugs that are effective
                 but associated with known or potential risks (e.g., death, injury) that,
                 without REMS, may outweigh the drugs’ benefits. Of the 199 approved
                 REMS, 119 required medication guides only and 48 required
                 communication plans. For drugs with the most serious risks, FDA
                 approved 32 REMS with ETASUs. 51 These drugs would not be approved
                 or their approval would be withdrawn without the ETASUs. 52 Of the 199
                 approved REMS, FDA approved 74 preapproval REMS in response to
                 information in drug applications. The remaining 125 postapproval REMS
                 were required in response to new safety information discovered after the
                 drugs were already on the market or for drugs with ETASUs already in
                 effect before REMS program initiation. 53
                 As of December 31, 2011, FDA no longer required 100 of the 199
                 approved REMS. Ninety-two of the REMS that are no longer required
                 included medication guides only, seven required communication plans,
                 and one required ETASUs. Medication guides existed prior to REMS and
                 may be required for drugs without REMS. Following program inception,
                 FDA required REMS for all drugs that required medication guides.
                 However, in November 2011, FDA published a guidance document
                 describing when medication guides would be required without also
                 requiring REMS. It also provided sponsors of REMS requiring only
                 medication guides with information about how to submit proposals to
                 eliminate the REMS. 54




                 51
                    REMS components are not exclusive. The 48 REMS that required communication plans
                 may have also required medication guides, and the 32 REMS that required ETASUs may have
                 also required communication plans and/or medication guides. We categorized the REMS
                 according to their primary component as of December 31, 2011.
                 52
                    Of the 32 REMS with ETASUs, 28 also required implementation systems.
                 53
                    FDA worked with sponsors to implement ETASUs for certain drugs prior to the REMS
                 program. After REMS program initiation, FDA required sponsors of these drugs to submit
                 REMS proposals in accordance with § 909(b)(3) of the Food and Drug Administration
                 Amendments Act (P.L. 110-85, Sept. 27, 2007).
                 54
                    FDA, Guidance for Industry: Medication Guides – Distribution Requirements and
                 Inclusion in REMS, pp. 7–8, November 2011. Accessed at
                 http://www.fda.gov/downloads/Drugs/GuidanceComplianceRegulatoryInformation/Guid
                 ances/UCM244570.pdf on August 2, 2012. This guidance states that it represents FDA’s
                 current thinking on this topic but does not bind FDA or the public.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)          14
                 According to the approved timetable in each REMS, 57 REMS required
                 sponsors to submit at least 1 assessment by December 31, 2011. 55 FDA
                 provided review memorandums for 49 of these REMS. 56 Of these
                 49 REMS, 11 required medication guides only, 19 required
                 communication plans, and 19 required ETASUs. 57

                 Nearly half of the 49 sponsor assessments we
                 reviewed did not include all information requested in
                 FDA assessment plans, and 10 were not submitted to
                 FDA within required timeframes
                 FDA assessment plans request sponsors to submit specific information to
                 enable FDA to determine whether REMS are meeting their goals. FDA
                 reviewed 49 sponsor assessments as of December 31, 2011. Almost half
                 (23 of 49) of the sponsor assessments did not include all of the
                 information requested in FDA assessment plans. See Table 2 for the
                 number of assessments that lacked information requested in assessment
                 plans by primary REMS component. For example, one sponsor did not
                 include the number of pharmacies that were deauthorized to dispense the
                 drug because of noncompliance with the REMS, as requested in the
                 assessment plan. The same sponsor also did not include the amount of the
                 drug shipped to health care providers compared to actual patient orders, as
                 requested. In review memorandums for the 23 assessments that did not
                 include information requested in assessment plans, reviewers
                 recommended that FDA notify the sponsors of 6 that their assessments
                 were incomplete. FDA review memorandums for the remaining 17
                 assessments did not indicate that FDA no longer requested sponsors to
                 submit the missing information.




                 55
                    This number does not include REMS that were no longer required as of December 31,
                 2011, or REMS for generic drugs, which are not subject to a timetable for assessments.
                 56
                    For the remaining eight assessments, FDA had not completed assessment reviews as of
                 December 31, 2011. As of December 31, 2011, FDA’s assessment reviews did not meet its
                 goal of 60 days for three of these eight assessments.
                 57
                    Of the 19 REMS with ETASUs, 12 required implementation systems.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)              15
                 Table 2: Sponsors’ Assessments Lacking Information Requested in
                 Assessment Plans
                                                         Number of Assessments
                                                             Lacking Information
                  Primary REMS Component
                                                        Requested in Assessment
                                                                           Plans
                  ETASU                                                      10

                  Communication plan                                          8

                  Medication guide                                            5

                      Total                                                  23

                Source: OIG analysis of sponsor assessments.

                 Sponsors and health care providers have expressed concerns about the
                 challenges associated with collecting data on the compliance of third
                 parties (e.g., patients, pharmacies, drug distributors). Specifically,
                 concerns about patient confidentiality and the lack of a standardized
                 format for sponsor assessments may contribute to the lack of data in some
                 assessments. 58
                 FDA does not have authority to take enforcement actions against sponsors
                 that do not include requested information in their REMS assessments.
                 Some items requested in FDA assessment plans are also required by
                 Federal law. An assessment of the extent to which the ETASUs met the
                 goal stated in the approved REMS was required by Federal law, but was
                 missing from seven assessments. 59
                 Further, 10 of 49 of sponsor assessments were not submitted to FDA by
                 the dates specified in the approved timetables, as required by FDCA.
                 These assessments were submitted between 3 and 70 days after the dates
                 specified in the timetables, with a median of 17 days. FDA has the
                 authority to take enforcement actions against sponsors that do not meet
                 Federal requirements for REMS assessments. However, since program
                 inception in 2008, FDA has not done so.

                 FDA determined that 7 of the 49 REMS we reviewed
                 met all of their goals
                 Using limited information in sponsor assessments, FDA determined that 7
                 of the 49 REMS we reviewed were meeting all of their goals and that 21

                 58
                    FDA, Transcript of REMS Public Meeting, July 28, 2010, pp. 208 and 284. Accessed at
                 http://www.fda.gov/downloads/Drugs/NewsEvents/UCM224950.pdf on July 3, 2012.
                 59
                    Assessments of the extent to which the ETASUs met the goals stated in the approved
                 REMS were required only for the 19 REMS with ETASUs. FDASIA changed this
                 requirement to no longer apply specifically to ETASUs. According to FDCA § 505-1(g)(3),
                 all sponsor assessments must now include, with respect to each goal of the REMS,
                 assessments of the extent to which the REMS are meeting the goals or of whether the
                 goals or REMS should be modified.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)               16
                  were not. FDA review memorandums indicated that FDA could not
                  determine whether 17 REMS were meeting all of their goals. FDA review
                  memorandums did not contain statements regarding whether the remaining
                  four REMS were meeting all of their goals. 60
                  As shown in Table 3, FDA determined that 1 of 19 REMS with ETASUs,
                  which are required for the riskiest drugs, was meeting all of its goals. In
                  review memorandums, FDA reviewers stated that eight REMS with
                  ETASUs were not meeting all goals and that they could not determine
                  whether eight others were meeting all goals. FDA did not determine
                  whether two REMS with ETASUs were meeting their goals.
              Table 3: Determinations of Whether REMS Were Meeting Goals

                Primary REMS               Meeting All       Not Meeting    Unable To      Did Not
                                                                                                                  Total
                Component                       Goals          All Goals    Determine    Determine


                ETASU                                 1                8           8              2                 19

                Communication plan                    2                10          5              2                 19


                Medication guide                      4                3           4              0                 11

                       Total                          7                21         17              4                 49

               Source: OIG analysis of FDA review memorandums, 2012.


                  FDA most often determined that REMS were not meeting their
                  goals because of deficiencies in patient and prescriber
                  awareness of drug risks
                  When FDA determined that REMS were not meeting all of their goals, it
                  most often identified deficiencies related to patient awareness of risks (14
                  of 21 assessments) and/or prescriber awareness of risks (12 of 21
                  assessments). For example, because a survey showed that patients had a
                  low understanding of key risk messages, FDA determined that one REMS
                  was not meeting its goal to inform patients of a drug’s risks. FDA
                  discussed REMS modifications with sponsors for 16 of the 21 REMS it
                  determined were not meeting all of their goals.
                  FDA did not discuss REMS modifications with sponsors of the remaining
                  five REMS it determined were not meeting their goals. 61



                  60
                     If an FDA review memorandum did not contain a statement from the reviewer regarding
                  whether the REMS was meeting its goals, we concluded that FDA did not make that
                  determination.
                  61
                     In some cases, FDA may have suggested that sponsors modify REMS assessments or
                  education materials rather than modifying the REMS. FDA indicated that these suggestions
                  were not consistently included in review memorandums.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                 17
                 Nearly all deficiencies identified by prior FDA assessment
                 reviews were still present in the sponsors’ most recent
                 assessments
                 FDA identified 22 deficiencies that may affect a REMS’ ability to mitigate
                 risks. 62 In 11 prior assessments we reviewed, 19 of 22 deficiencies
                 identified by FDA’s prior assessment reviews were identified again in
                 reviews of the most recent assessments. Reviewers identified deficiencies
                 that included low patient exposure to medication guides, low
                 understanding of risk messages among patients and/or prescribers, and
                 poor compliance with the REMS among health care providers.
                 FDA could not determine whether REMS were meeting their
                 goals most often because of incomplete information in
                 assessments
                 For 8 of 17 assessments, FDA could not determine whether REMS were
                 meeting their goals because of a lack of information included in the
                 sponsors’ assessments. For example, FDA could not determine whether
                 one REMS was meeting its goal to inform patients of the drug’s risks
                 because the sponsor did not include an assessment of patients’
                 understanding of risks in the assessment. FDA could not determine
                 whether an additional three REMS were meeting their goals because
                 assessments were required too early in the implementation of the REMS to
                 draw conclusions. 63
                 FDA could not determine whether five REMS were meeting their goals
                 because of concerns about the quality of the surveys used in the sponsor
                 assessments. 64 FDA’s concerns generally related to small sample sizes or
                 the use of surveys that did not meet FDA’s standards. However, FDA does
                 not specify in its assessment plans the sample size that would enable it to
                 determine whether a REMS is meeting its goals.

                 FDA has not identified reliable methods to evaluate the
                 effectiveness of REMS
                 FDA has not developed a plan to identify, develop, validate, and assess the
                 effectiveness of REMS components, as stated in its 5-year plan
                 (2008–2012) to enhance and modernize drug safety activities.


                 62
                    A sponsor’s second most recent assessment is considered the prior assessment. FDA
                 provided review memorandums for 14 prior assessments and identified deficiencies in 11.
                 63
                    Two of these assessments were required 6 months after REMS approval. The third
                 assessment was required 12 months after approval, but the drug’s introduction to the market
                 was delayed, which delayed data collection for the assessment.
                 64
                    Two of these five REMS assessments also lacked information. FDA reviewers did not
                 explain why they were unable to determine whether REMS were meeting their goals for the
                 remaining sponsors’ assessments.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                   18
                 Additionally, FDA has not met the Federal requirement to evaluate the
                 ETASUs of one REMS each year. Further, FDA has identified limitations
                 in methods used to evaluate the effectiveness of REMS.
                 FDA has evaluated the ETASUs of one REMS since program
                 inception in 2008
                 According to FDCA, FDA must evaluate the ETASUs for at least one drug
                 each year to determine whether they (1) assure safe use of the drug; (2) are
                 unduly burdensome on patient access to the drug; and (3) to the extent
                 practicable, minimize the burden on the health care delivery system.
                 Between 2008 and 2011, FDA approved 32 REMS with ETASUs to
                 address drugs with the most serious risks. As of December 31, 2011, FDA
                 had completed an evaluation for one drug with an ETASU.
                 On December 1, 2011, FDA’s Drug Safety and Risk Management
                 Advisory Committee met to evaluate the ETASUs of isotretinoin. 65 At the
                 meeting, FDA and stakeholders discussed the impact of the isotretinoin
                 REMS on patients and the health care delivery system. FDA and industry
                 representatives noted several challenges associated with completing the
                 required evaluation, including the lack of baseline (pre-REMS) utilization
                 data and the inability to account for changes in utilization because of
                 factors not related to the REMS.
                 FDA stated that it had not formally evaluated a REMS with ETASUs in
                 the first 3 years of the REMS program because it was focused on
                 developing REMS and implementing the program. Additionally, FDA
                 stated that REMS must be implemented for a sufficient period of time
                 before they can be properly evaluated. 66
                 Because FDA has completed this evaluation for just 1 of 32 drugs with
                 ETASUs, it has limited data to demonstrate that the remaining REMS with
                 ETASUs effectively ensure safe use of drugs or meet statutory
                 requirements to minimize burdens on patients and the health care system.

                 65
                    Isotretinoin was originally approved as an acne treatment and marketed as Accutane.
                 Accutane is no longer on the market, but its generic equivalents remain on the market under a
                 single, shared-system REMS for isotretinoin. The ETASUs require that prescribers and
                 pharmacies be specially certified, patients have evidence of safe-use conditions, and sponsors
                 maintain pregnancy registries. Minutes of the Advisory Committee meeting are available to
                 the public. Accessed at
                 http://www.fda.gov/AdvisoryCommittees/CommitteesMeetingMaterials/Drugs/DrugSafet
                 yandRiskManagementAdvisoryCommittee/ucm250295.htm on July 19, 2012.
                 66
                    Prior to the use of REMS, FDA used Risk Minimization Action Plans (RiskMAPs) to
                 manage risks of certain drugs. The ETASUs for isotretinoin were fully implemented in 2006
                 under a RiskMAP. Claudia Karwoski, Opening Remarks for Drug Safety and Risk
                 Management and Ophthalmic Advisory Committee Meeting, December 1, 2011. Accessed at
                 http://www.fda.gov/downloads/AdvisoryCommittees/CommitteesMeetingMaterials/Drug
                 s/DermatologicandOphthalmicDrugsAdvisoryCommittee/UCM285047.pdf on September
                 20, 2012.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                  19
                 FDA has identified limitations with using survey data to assess
                 REMS
                 FDA often requests that sponsors include results of surveys regarding
                 patients’ and/or health care providers’ knowledge of risks in REMS
                 assessments. 67 FDA made such requests in each of the 49 sponsor
                 assessments we reviewed. Of these 49 sponsor assessments, 40 included
                 survey data in response to this request and 9 did not.
                 However, in a White Paper issued in June 2012, FDA identified several
                 limitations in some sponsors’ surveys. These included sample sizes too
                 small to draw conclusions, survey populations that do not reflect the
                 demographics of the target population, bias caused by convenience
                 samples, and the lack of objective standards to measure knowledge of
                 risks. 68 FDA states that because of these limitations, surveys may not
                 always be the best method for assessing the effectiveness of REMS
                 educational components. 69

                 FDA’s assessment review times exceeded its 60-day
                 goal for all but one sponsor assessment
                 FDCA requires FDA to promptly review sponsor assessments. 70 Although
                 FDA does not define “promptly,” FDA officials indicated that their goal is
                 to complete all assessment reviews within 60 days of a sponsor’s
                 assessment submission if FDA does not discuss REMS modifications with
                 sponsors. FDA did not discuss REMS modifications with sponsors for
                 29 of the 49 sponsor assessments we reviewed. 71 FDA’s assessment
                 review times exceeded 60 days for 28 of these 29 sponsor assessments.
                 FDA’s average assessment review time was 73 days and the median
                 review time was 69 days. 72 Reviews of three sponsor assessments were
                 completed at least 120 days after the sponsor submitted them. 73 If FDA


                 67
                    FDA, Risk Evaluation and Mitigation Strategy Assessments: Social Science Methodologies
                 to Assess Goals Related to Knowledge, pp. 1–2. Accessed at
                 http://www.fda.gov/downloads/Drugs/NewsEvents/UCM301966.pdf on September 13,
                 2012.
                 68
                    Convenience samples are selected on the basis of what is most feasible for the researcher
                 and are therefore not always representative of the larger population.
                 69
                    Ibid, pp. 5–6.
                 70
                    FDCA § 505-1(h)(1).
                 71
                    FDA’s 60-day goal for reviewing sponsors’ assessments does not apply to the
                 remaining 20 assessments for which it discussed REMS modifications with sponsors.
                 72
                    The average and median review times do not include reviews that were not complete as
                 of December 31, 2011.
                 73
                    The FDA review memorandum for one of these REMS indicated that it is included in
                 the opioid class REMS, which was under development at the time of the review and may
                 have contributed to delays in review completion. The FDA review memorandums for the
                 remaining two REMS do not indicate a reason for delays.

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)               20
                 does not review sponsor assessments in a timely manner, sponsors may
                 have limited time to implement suggested changes to a REMS before
                 submitting the next assessment.




FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   21
                 CONCLUSION AND RECOMMENDATIONS
                 FDA requires REMS for drugs associated with known or potential risks
                 that, without REMS, may outweigh the drugs’ benefits. REMS are
                 enforceable, structured plans to manage specific risks associated with
                 drugs. However, FDA does not have the authority to take enforcement
                 actions against sponsors that do not include all information requested in
                 FDA assessment plans. If FDA does not have comprehensive data to
                 monitor the performance of REMS, it cannot ensure that the public is
                 provided maximum protection from a drug’s known or potential risks.
                 Between program inception in 2008 and 2011, FDA approved 199 REMS,
                 99 of which were still required in 2012. However, FDA does not have
                 comprehensive data from sponsor assessments to determine whether
                 REMS are meeting their goals because many sponsor assessments are
                 incomplete or include data that do not meet FDA’s standards.
                 Additionally, using the limited information in sponsor assessments, FDA
                 determined that 7 of 49 REMS were meeting all of their goals and that
                 21 were not, raising questions about the effectiveness of REMS.
                 Further, FDA has completed the federally required evaluation for 1 of
                 32 drugs with ETASUs since program inception. Therefore, FDA has
                 limited data to demonstrate that the remaining REMS with ETASUs
                 effectively ensure safe use of drugs or meet statutory requirements to
                 minimize burdens on patients and the health care system. Additionally,
                 FDA has not identified reliable methods for evaluating REMS.
                 Finally, FDA’s assessment review times exceeded 60 days for all but one
                 sponsor assessment, which may limit sponsors’ ability to implement
                 suggested changes to the REMS before submitting the next assessment.
                 In conclusion, our findings raise concerns about the overall effectiveness
                 of the REMS program. To address these concerns, we recommend that
                 FDA:
                 Develop and implement a plan to identify, develop, validate,
                 and assess REMS components
                 This plan should fulfill FDA’s commitment in its 5-year plan and outline
                 ways that FDA will assess the effectiveness of REMS beyond reviewing
                 sponsors’ assessments.
                 FDA should also identify and implement reliable methods to assess the
                 effectiveness of REMS. FDA should decrease its reliance on survey data
                 in sponsors’ assessments and work with sponsors and health care providers
                 to develop more accurate evaluation methods.



FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   22
                 Additionally, FDA should continue to hold discussions with stakeholders,
                 similar to the public meetings held in 2010 and 2012, about the issues and
                 challenges associated with assessing the effectiveness of REMS
                 components. 74
                 Identify REMS that are not meeting their goals and take
                 appropriate actions to protect the public health
                 FDA should consistently discuss potential REMS modifications with
                 sponsors when it determines that a REMS is not meeting its goals. FDA
                 should work with sponsors to determine the most appropriate
                 modifications to address the REMS’ deficiencies. If a REMS undergoes
                 multiple modifications and continues not to meet its goals, FDA should
                 consider removing the drug from the market.
                 If FDA cannot determine whether a REMS is meeting its goals, it should
                 work with sponsors to obtain any additional information that it needs to
                 make this determination. FDA should not wait until it reviews the next
                 sponsor assessment to determine whether a REMS is meeting its goals.
                 Evaluate the ETASUs of one REMS each year as required by
                 Federal law
                 FDA should determine whether the ETASUs (1) assure safe use of the
                 drug; (2) are unduly burdensome on patient access to the drug; and (3) to
                 the extent practicable, minimize the burden on the health care delivery
                 system. FDA fulfilled this requirement for the first time in 2011 and
                 should continue to conduct formal evaluations of at least one REMS with
                 ETASUs each year.
                 Through these evaluations, FDA can determine how effective various
                 ETASUs are, whether ETASUs cause barriers to patient access, and which
                 ETASUs are the most burdensome for health care providers. Evaluations
                 would also inform FDA’s decisions about the most effective ETASUs for
                 mitigating specific risks. FDA should use this information to change or
                 eliminate any ETASUs that are both burdensome and ineffective in
                 assuring safe use of a drug.
                 Identify incomplete sponsor assessments and work with
                 sponsors to obtain missing information
                 FDA should consistently notify sponsors that their assessments are
                 incomplete and request that sponsors provide the missing information as
                 soon as possible. FDA should also work with sponsors to obtain the
                 missing information.



                 74
                      75 Fed. Reg. 34453 (June 17, 2010) and 77 Fed. Reg. 26292 (May 3, 2012).

FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)     23
                 Clarify expectations for sponsors’ assessments in FDA
                 assessment plans
                 FDA should make assessment plans as specific as possible to ensure that
                 data included in sponsors’ assessments will enable FDA to determine
                 whether REMS are meeting their goals. For example, FDA should specify
                 sample sizes needed to complete valid surveys. FDA should use
                 assessment plans to establish quality standards for data to be submitted in
                 sponsors’ assessments. If FDA cannot determine whether a REMS is
                 meeting its goals because of the quality of data in a sponsor’s assessment,
                 it should notify the sponsor of this concern and, if necessary, clarify data
                 standards for future assessments.
                 Seek legislative authority to enforce FDA assessment plans
                 FDA currently does not have authority to take enforcement actions when
                 sponsors do not submit all information requested in assessment plans.
                 FDA should work with the appropriate stakeholders to seek legislative
                 authority to enforce assessment plans. This would allow FDA to take
                 regulatory actions when a sponsor’s assessment did not include all items
                 requested in the FDA assessment plan. Further, enforcement authority
                 should encourage sponsors to submit the amount and quality of
                 information FDA needs to determine whether REMS effectively mitigate
                 risks.
                 Ensure that assessment reviews are timely
                 FDCA requires FDA to promptly review sponsor assessments. FDA
                 officials indicated that their goal is to complete all assessment reviews
                 within 60 days of sponsors’ assessment submissions if FDA does not
                 discuss REMS modifications with sponsors. Since FDA set this goal,
                 some FDCA provisions regarding the review of sponsors’ assessments
                 have changed because of FDASIA. If FDA chooses to change this goal of
                 60 days, it should define “promptly” as it pertains to reviewing sponsor
                 assessments and complete assessment reviews within this timeframe.
                 FDA should identify ways to complete assessment reviews within its goal
                 of 60 days or the newly established timeframe. This would allow time for
                 informed discussions with sponsors about REMS modifications, if
                 necessary. This would also enable sponsors to make timely changes to
                 REMS and/or REMS assessments in response to FDA’s review. To
                 maximize review resources, FDA could prioritize assessment reviews for
                 REMS with ETASUs as these REMS are required for drugs with the most
                 serious risks and generally require more frequent assessments.




FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   24
                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                 RESPONSE
                 In its comments on the draft report, FDA concurred with six of our
                 recommendations and, for the remaining recommendation, agreed that
                 seeking legislative change should be considered if another opportunity
                 arises to do so. FDA agreed with the need to improve future REMS
                 assessments but stated that there would always be challenges in measuring
                 the impact of REMS. FDA provided historical context to describe the
                 evolving nature of pharmaceutical risk management. FDA also provided
                 information about the REMS Integration Initiative which was created in
                 2011.
                 With regard to our first recommendation, FDA noted that the REMS
                 Integration Initiative will include contributions from key stakeholders on
                 the development, implementation, and effectiveness of REMS tools.
                 With regard to our second recommendation, FDA stated that it has worked
                 and will continue to work with sponsors to determine the best response
                 when it determines that a REMS is not meeting its goals. Additionally,
                 FDA stated that it plans to develop draft guidance concerning how to write
                 REMS goals and the metrics for determining whether these goals have
                 been met.
                 With regard to our third recommendation, FDA noted that it faced
                 challenges, including insufficient experience in evaluating REMS and
                 insufficient assessment data available, in meeting the Federal requirement
                 to evaluate the ETASUs of at least one drug each year. FDA also noted
                 that while it did not formally meet this requirement until 2011, it discussed
                 certain REMS with ETASUs at various advisory committees prior to 2011.
                 With regard to our fourth recommendation, FDA stated that it has worked
                 and will continue to work with sponsors to obtain information missing
                 from assessments if that information is necessary to determine whether a
                 REMS is meeting its goals. If FDA determines that the information is not
                 necessary to determine whether a REMS is meeting its goals, it will
                 reevaluate the need for the information.
                 With regard to our fifth recommendation, FDA stated that it is committed
                 to holding public workshops to gather stakeholder input. FDA plans to
                 issue draft guidance on methodologies for assessing whether REMS are
                 meeting are their goals and the impact of REMS on patient access and
                 burden on the health care system. Additionally, FDA noted that it has
                 reviewed and will continue to review proposed assessment protocols if
                 sponsors submit them prior to initiating the REMS assessment.



FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   25
                 FDA did not explicitly concur with our sixth recommendation but agreed
                 that it should be considered if another opportunity arises to pursue
                 legislative changes to the statutory provisions that describe REMS
                 assessment requirements.
                 Finally, with regard to our seventh recommendation, FDA stated that it is
                 examining the internal assessment review process for ways to improve the
                 timeliness of FDA assessment reviews.
                 We support FDA’s efforts to address these issues and encourage it to
                 continue making progress in these areas. For the full text of FDA’s
                 comments, see Appendix B. We made minor changes to the report based
                 on FDA’s technical comments.




FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   26
                 APPENDIX A

                   Assessment Review Memorandums Provided by FDA
                                Division of Risk      Office of
                                  Management        Compliance Prior Assessment
                                        Review         Review        and Review
 Name of Drug                    Memorandum      Memorandum Memorandum(s)*
                                        ETASU
 Abstral sublingual tablets                    X              X
 Erythropoiesis stimulating
 agents                                        X              X               X
 Butrans transdermal system                    X
 Caprelsa tablets                              X              X
 Entereg capsules                              X              X               X
 Exalgo extended-release
 tablets                                       X              X               X
 Isotretinoin                                  X              X
 Letairis tablets                              X              X
 Lumizyme                                      X                              X
 Nplate for subcutaneous
 injection                                     X              X               X
 Onsolis buccal soluble film                   X
 Oxycontin
 controlled-release tablets                    X                              X
 Promacta tablets                              X              X               X
 Revlimid capsules                             X              X               X
 Sabril tablets and oral
 solution                                      X                              X
 Soliris injection                             X              X               X
 Suboxone sublingual film                      X              X               X
 Thalomid capsules                             X
 Tracleer tablets                              X              X
                                 Communication Plan
 Actemra injection                             X              X
 Ampyra extended-release
 tablets                                       X
 Botox and Botox Cosmetic
 injection                                     X              X
 Dulera inhalation aerosol                     X              X
 Dysport injection                             X              X
 Effient tablets                               X              X
                                                                            continued on next page



FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)         27
Appendix A, continued
                   Assessment Review Memorandums Provided by FDA
                                 Division of Risk      Office of
                                   Management        Compliance         Prior
                                         Review         Review Assessment and
 Name of Drug                     Memorandum       Memorandum Memorandum(s)
                                 Communication Plan
 Embeda extended-release
 tablets                                        X              X            X
 Forteo injection                               X              X
 Kalbitor injection                             X              X
 Krystexxa injection                            X              X
 Multaq tablets                                 X              X            X
 Myobloc injection                              X              X
 Samsca tablets                                 X
 Stelara injection                              X              X
 Tasigna capsules                               X
 Vibativ injection                              X
 Xenazine tablets                               X              X            X
 Xiaflex injection                              X              X
 Zortress tablets                               X              X
                                   Medication Guide
 Actoplus Met tablets                           X
 Actoplus Met XR
 extended-release tablets                       X
 Actos tablets                                  X
 Duetact tablets                                X
 Androgel 1.62% gel                             X              X
 Chantix tablets                                X              X
 Nucynta immediate release
 tablets                                        X
 Testim gel                                     X              X
 Venlafaxine hydrochloride
 extended-release tablets                       X              X
 Vivitrol extended-release
 injectable suspension                          X
 Zyban sustained-release
 tablets, Wellbutrin,
 Wellbutrin
 sustained-release tablets,
 and Wellbutrin
 extended-release tablets                       X              X
   Total                                      49             33            14
*Some REMS had not required multiple assessments as of December 31, 2011. A blank in this column does not necessarily
indicate that a sponsor did not complete a required assessment.


FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                            28
                      APPENDIX B
                      Agency Comments


     ..,.,-
          ....
    ( t#
      .E         m<:PARTMJ:NT OF HEAI.T!IA...lii.D HU\iAN SERV,l CES
    ....~~
                                                                                            Food and Drug Administration
                                                                                            Silver Spring , MD 20993




                 DATE: 	        December 10, 2012

                 TO: 	          Daniel R. Levinson
                                Inspector General

                 FROM: 	        Peter Lurie, MD, MPH
                                Acting Associate Commissioner for Policy and Planning

                 SUBJECT: 	 Food and Drug Administration's Response to Office of Inspector General
                            Draft Report: FDA Lacks Conrprellensive Data to Determ i11e Whether REMS
                                Improve Drug Safety (OEI-04-11-00510)


                 FDA is providing the attached response to the Office of Inspector General's draft report.

                 FDA appreciates the opportunity to comment on this draft report.

                                                                /S/
                                                      Peter Lurie
                                                      Acting Associate Commissioner for Policy and Planning

                 Attachment




FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)                               29
FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   30
FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   31
FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   32
FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   33
                 ACKNOWLEDGMENTS
                 This report was prepared under the direction of Dwayne Grant, Regional
                 Inspector General for Evaluation and Inspections in the Atlanta regional
                 office, and Jaime Durley, Deputy Regional Inspector General.
                 Sarah Langford served as the lead analyst for this study. Central office
                 staff who provided support include Clarence Arnold, Debra Roush, and
                 Talisha Searcy.




FDA Lacks Comprehensive Data To Determine Whether REMS Improve Drug Safety (OEI-04-11-00510)   34
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
